No. 20-6
IN THE SUPREME COURT OF THE UNITED STATES

WILLIAM BURKE,
Petitioner,
vs.
PROGRESSIVE GULF INSURANCE,
Respondent.

On Petition for Writ of Certiorari to the United States Court of Appeals for the
Fourth Circuit

REPLY BRIEF OF PETITIONER

William Burke
3017 Northridge Road
H
•
-• -1 03

SEP - 2 2020
ERK
O
SUPREME COURTU.S.

r'a•-•
4

,

INTRODUCTION
Progressive Gulf Insurance did not act in good faith in their dealings with
their client William Burke. Progressive has a history of engaging in "unfair and
deceptive business practices" . (Bobby Jones v. Progressive Casualty Insurance
Company, et al., Case No. 3:16-cv-06941, in the U.S. District Court for the Northern
District of California).
Progressive offers lowball' settlements. When policyholders refuse the
settlements, Progressive sues forcing the client to incur exorbitant legal fees. •
Progressive disparages their policyholders. Progressive referred to Mr. Burke
as a "soap salesman" when in fact, he worked his way up to the position of a District
Manager. They impugned his character by questioning his Pro Se status. In the
final stages of this case, Mr. Burke daughters and their friend; who were trained in
elementary education and social work, a far cry from law, helped him write the
briefs. Progressive is again trying to manipulate the court by calling into question
William Burke's honesty ,and veracity. Progressive avoids jury trials in favor of Summary Judgments in order to deny claimants their proverbial day in court.
(Progressive Mountain Insurance Company v.-Auto-Owners Insurance Company,
19-11439 11th Cir. 2020) By petitioning the court for a Summary Judgment and
receiving a judgment in their favor, Progressive is able to avoid paying out claims.
Another tactic Progressive employs is accusing plaintiffs of bringing up new issues.
This case is a clear example of Progressive's questionable practices.

REPLY TO ARGUMENTS
I. Progressive claims that they properly invoked the District Court's
admiralty jurisdiction and that the same result would have been
obtained had the District Court exercised the diversity jurisdiction that
Progressive also invoked.
Progressive did not properly invoke the District Court's admiralty jurisdiction.
Progressive invoked the admiralty jurisdiction of the District Court because
the policy of marine insurance in dispute was and is a maritime contract. However,
the Ninth Circuit's interpretation of Norfolk S. Ry. Co. v. Kirby, 543 U.S. 14, 23, 125
S. Ct. 385, 160 L.Ed.2d 283 (2004) does not concur. The Ninth Circuit's "primary
objective" test examines whether the contract has a primary purpose of affecting
maritime commerce. They concluded that a policy is not maritime if it primarily
covers shore-side risks and excludes maritime risks. The vessel in question was
basically a "floating dock" at the time of the occurrence. As such, maritime law does
not apply. Putting the case in maritime court added excess burden on William
Burke. Mr. Burke tried and failed to acquire legal representation familiar with
maritime law. The cost of this legal burden is exorbitant and out-of-reach to the
average Progressive client. The underlying motive behind this tactic cannot be
disputed.
II. Progressive's argument is that summary judgment does not violate the
Seventh Amendment right to a jury trial and was appropriately awarded.
2

A. Summary judgment does violate the Seventh Amendment.
"Summary judgments should be cautiously invoked so that no person will be
improperly deprived a trial of disputed factual issues." Arkansas Right to Life v.
Butler, 983 F. Supp. 1209, 1215 (W.D. Ark. 1997), affd 146 F.3d 558 (8th Cir.1998).
It is "an extreme remedy which should be sparingly employed." Giordano v. Lee, 434
F.2d 1227, 1230 (8th Cir.1970). "Summary judgment is a lethal weapon, and courts
must . . . beware of overkill in its use." Brunswick Corp. v. Vineberg, 370 F.2d 605,
612 (5th Cir. 1967).
The Seventh Amendment guarantee of a right to trial by jury is violated by
allowing summary judgments where there are "genuine issue[s] as to . . . material
fact[s]" and a right to jury trial exists. Mr. Burke preferring a jury trial is not a new
issue. It is his constitutional right. The court decision should be reserved for a jury.
Even so-called "meritless" cases should go to a jury if the non-moving party
has any evidence that would allow a jury to reasonably find for him or her. The
important question is whether the non-moving party, or party that did not bring the
case, can meet his or her burden of production—and not whether the case
ultimately has "merit." (The Unconstitutional Application of Summary Judgment
in Factually Intensive Inquires Journal of Constitutional Law Craig M. Reiser*
January 2014). Fed. R. Civ. P. 56(f) expressly provides for the denial of summary
judgment motions if the nonmoving party has not had an opportunity to make full
3

discovery. For example, a Mr. John Flaherty, employed at Defender Industries,
never had an opportunity to make a statement to the court. Flaherty clearly stated
that, "If you are using a reverse cycle air conditioning system year-round, you don't
winterize the system. If it were winterized you would need to commission the
system every time it was turned on."
B. Summary judgment was not valid in this case.
Progressive claims that a Summary Judgment was warranted because no
material facts were in dispute. There are facts in dispute. At the heart of this case
is the dispute about winterizing the vessel. Mr. Burke did winterize his catamaran
houseboat per customary and manufacturer-recommended maintenance guidelines
and per local custom. The houseboat was equipped with two Marvair SeaMach
systems which are reverse cycle air conditioner and heater systems allowing Mr.
Burke to use his houseboat year round including the winter. Mr. Ryan repeatedly
refers to these as air conditioning units. He is incorrect. Perhaps Mr. Ryan did not
recognize or was not familiar with reverse cycle air conditioner and heater systems.
If Mr. Ryan would have contacted the manufacturer, he would have learned that
the boat had been properly winterized according to the manufacturer-recommended
guidelines and local custom. While Mr. Burke did not recall seeing the manual, he
never stated that he did not winterize the boat properly as attested to by Mr. John
Flaherty of Defender Industries. During Mr. Burke's examination under oath on
May 17, 2018, Christopher Abel, Progressive's counsel, brought a manual and
4

entered it into evidence admitting that it was most likely not the correct manual,
"... And it may not be the same model ... that this is the owner's manual for a kind
of Marvair marine air conditioner." Mr. Abel, just as Mr. Ryan, erroneously refers
to an "air conditioner". Progressive concluded that Mr. Burke did not follow the
manufacturer -recommended guidelines based on an incorrect manual for the
Marvair SeaMach reverse cycle air conditioner and heater system. Mr. Burke
continued to maintain that he followed all customary and manufacturer
recommended maintenance guidelines and local custom.
Progressive's claim that the strainer bowl in question cracked due to the
winter weather is also in dispute. Neither Mr. Ryan nor Progressive exercised due
diligence in seeking the cause of the broken strainer bowl. Progressive did not want
to acknowledge this fact.
In addition, there is another dispute in this case and that is with Progressive
itself. Progressive Gulf Insurance initially determined that William Burke's claim
had merit and saw fit to offer a monetary award. While the offer was far below the
value of the vessel, it does prove that Progressive did acknowledge that Mr. Burke's
claim was valid and that they deemed his vessel seaworthy.
Conclusion
William Burke respectfully requests the Writ of Certiorari be granted.
Respectfully Submitted

William P. Burke Jr

